WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No 20-7552
Hugo Rufino Alvarez-Reyes
(Petitioner)

v. Brad Cain, Superintendent, Snake River
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check one of the following boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I certify that I am a member of the Bar of the Supreme Court of the United States (Please explain if
your name has changed since your admission):
Signature /S/ Benjamin Gutman
Date. 03/29/2021
(Type or print) Name Benjamin Gutman
fa Mr.
El Ms.

13 Mrs.

13 Miss

Firm Oregon Department of Justice
Address 1162 Court Street
City & State Salem, Oregon

Zip 97301-4096

Phone (503) 378-4402
A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
SEE REVERSE FOR INFORMATION CONCERNING THE STATUS OF A CASE ON THE
DOCKET.
CC: Hugo Rufino Alvarez-Reyes, Pro Se Petitioner

RECEIVED
APR

8 2021

OFFICE OF THE CLERK
SUPREME COURT U.S.

